                                              1   OFFICE OF JOB CORPS
                                              2
                                          3
                                          4
                                          5
                                          6
Office of Inspector General—Office of Audit
                                          7
                                          8
                                          9
                                         10
                                         11
                                         12
                                         13
                                         14
                                         15
                                         16
                                         17
                                         18

                                         19

                                         20       COMPLAINT INVOLVING THE
                                         21       CINCINNATI JOB CORPS CENTER
                                         22
                                         23
                                         24
                                         25
                                         26
                                         27
                                         28
                                         29




                                                                        Date Issued: September 29, 2006
                                                                        Report Number: 03-06-004-01-370
U.S. Department of Labor                               September 2006
Office of Inspector General
Office of Audit                                        Audit of Complaint Involving the Cincinnati
                                                       Job Corps Center

BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number: 03-06-004-01-370, to      Our audit substantiated allegation 1. We could not
the National Director of Job Corps.                    make a conclusion on allegation 2, and could find no
                                                       evidence to substantiate allegations 3, 4, 5 and 6.
WHY READ THE REPORT
                                                       Regarding allegation 1, which we substantiated, we
                                                       found that the Center used combinations of various
The Office of Inspector General (OIG) performed an     leave categories to include students on the Morning
audit of six allegations made in a complaint against   Accountability Check report even though they had
the Management Training Corporation (MTC),             physically left the Center but were not officially
operator of the Cincinnati Job Corps Center (the       terminated. Extending students’ termination dates
Center). We performed the audit in response to a       can inflate the Center’s student onboard strength
hotline complaint alleging mismanagement and           which is one of the performance measures that Job
misappropriation of Job Corps’ funds by Center         Corps uses to determine center contractor efficiency.
employees. Our objective was to determine the          We did not determine what effect extending the stay
validity of the six allegations made in the hotline    of nine students had on the Center’s student
complaint. We limited our audit to the specific        onboard strength. We are presently conducting an
allegations in the complaint.                          audit of the Center’s use of a combination of various
                                                       leave categories for all students for program year
WHY OIG DID THE AUDIT                                  2002 through March 31, 2006, to determine the
The purpose of our audit was to answer the             extent and impact of the problem.
following questions:

    1. Did the Center report students who left the     WHAT OIG RECOMMENDED
       Job Corps Program on its Morning
       Accountability Check report?                    Because we are conducting additional audit work on
                                                       related issues, this report has no recommendations.
    2. Did the Center allow students with excessive
       unexcused absences from training to             In their response to the draft report, MTC officials
       continue in the Job Corps Program?              disagreed with our conclusion that the Center used
                                                       combinations of various leave categories to extend
    3. Did several Center employees claim time for     the students’ termination dates beyond their actual
       hours not worked?                               departures from the Center. MTC officials stated
                                                       that the fact that that the leave occurred at the end
    4. Did the Center enforce Job Corps’ Zero          of the student’s tenure in the program did not
       Tolerance Policy?                               automatically mean that the leave was used to
                                                       extend the termination date.
    5. Did Center employees steal property and
       medical supplies?

    6. Did the Center improperly use beautification
       items?




READ THE FULL REPORT
To view the report, including the scope,
methodology, and MTC’s response, go to:
http://www.oig.dol.gov/public/reports/oa/2006/03-06-
004-01-370.pdf
                                                           Complaint Involving the Cincinnati Job Corps Center



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
   The Center Reported Students Who Left the Job Corps Program on its
   Morning Accountability Check Report..................................................................... 8

   The Center Allowed Students With Excessive Unexcused Absences
   to Continue in the Job Corps Program.................................................................. 11

   Documentation Supported Hours Worked for Several Center Employees......... 14

   The Center Enforced Job Corps' Zero Tolerance Policy...................................... 15

   We Found No Evidence of Unreported Theft of Property and Medical
   Supplies by Center Employees .............................................................................. 17

    We Did Not Determine that the Center Improperly Used
    Beautification Items................................................................................................ 19

EXHIBITS...................................................................................................................... 21
   A. Leave Categories ................................................................................................ 23

   B. Leave Used to Extend Center Days for Six Students....................................... 25

   C. Combination of Leave Used to Extend Center Days for Three Students ....... 27


APPENDICES ............................................................................................................... 29
   A. Background ......................................................................................................... 31

   B. Objectives, Scope, Methodology, and Criteria ................................................. 33

   C. Acronyms and Abbreviations ............................................................................ 37

   D. Agency Reponse to the Draft Report ................................................................ 39




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center



Executive Summary
The Office of Inspector General (OIG) performed an audit of six allegations made in a
complaint against the Management Training Corporation (MTC), operator of the
Cincinnati JCC. We performed the audit in response to a hotline complaint alleging
mismanagement and misappropriation of Job Corps’ funds by Center employees. Our
objective was to determine the validity of the six allegations made in the hotline
complaint. We limited our audit to the specific allegations in the complaint. See
appendix B for details on the audit’s scope and methodology. Our audit objectives for
the six allegations were:

   1. Did the Center report students who left the Job Corps Program on its Morning
      Accountability Check report?

   2. Did the Center allow students with excessive unexcused absences from training
      to continue in the Job Corps Program?

   3. Did several Center employees claim time for hours not worked?

   4. Did the Center enforce Job Corps’ Zero Tolerance Policy?

   5. Did Center employees steal property and medical supplies?

   6. Did the Center improperly use beautification items?

Our audit substantiated allegation 1. We could not make a conclusion on allegation 2,
and could find no evidence to substantiate allegations 3, 4, 5 and 6.

Results

We found that the Center reported students on the Morning Accountability Check report
even though they had physically left the Center but were not officially terminated. The
Center used combinations of various leave categories to extend the students’
termination dates beyond their actual departure from the Center. Extending students’
termination dates can inflate the Center’s student onboard strength. Student onboard
strength is one of the performance measures that Job Corps uses to determine center
contractor efficiency. We did not determine what effect extending the stay of nine
students had on the Center’s student onboard strength. We are currently conducting an
audit of the Center’s use of a combination of various leave categories for all students for
program year 2002 through March 31, 2006, to determine the extent and impact of the
problem.

Although we found the Center allowed students with excessive unexcused absences
from training to continue in the Job Corps Program, we could not conclude whether the

U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

Center took appropriate action according to its policies and procedures for addressing
these students’ behavior. The complainant provided us the names of 23 students who
had unexcused absences or missed training periods, which the complainant believed to
be excessive. We determined that there was a pattern of unexcused absences for 12 of
the 23 students. However, we could not determine if the Center took appropriate action
for 11 of the 12 students because the Center destroys the student Center Standards
Office file 6 months after the termination date, unless the student separates from the
Job Corps Program for disciplinary reasons. We are presently conducting an audit of
current students with excessive absences to determine if the Center took appropriate
action according to its policies and procedures.

We found no evidence to substantiate the remaining allegations.

This audit focused on the students the complainant provided. We are currently
performing a separate audit on the extent and effect of the Center’s use of leave to
manipulate student termination dates and the Center’s action on students who have
excessive absences from training. Therefore, we have no recommendations.

Contractor Response

In their response to the draft report, MTC officials disagreed with our conclusion that the
Center used combinations of various leave categories to extend the students’
termination dates beyond their actual departure from the Center. MTC officials stated
that all the students were on approved leave, and the fact that that the leave occurred at
the end of the student’s tenure in the program, did not automatically mean that the leave
was used to extend the termination date. MTC officials also responded that they
considered job search to be a legitimate use of the leave category Present for Duty Off
Center (PDOF) because when specifying the allowable uses of PDOF leave, the
language in the PRH states “such as,” as opposed to “limited to.” Further supporting
the use of PDOF leave for job search, MTC officials responded that the Job Corps
Chicago Regional Office Career Development Services System Plan, issued in August
2001, stated the regional office goals for centers was to place at least 90 percent of
graduates prior to their separation dates. Also, MTC officials stated they sent the
Center’s standard operating procedure for using PDOF for job search to the Job Corps
Chicago Regional Office for review and it was never questioned.

MTC’s response did not address our work on excessive unexcused absences.

See Appendix D for a copy of MTC’s response to the draft report. Attachments that
MTC submitted along with its response are not included in Appendix D, but are
available upon request.

OIG Conclusion

We did not change our conclusion that the Center used combinations of various leave
categories to extend the students’ termination dates beyond their actual departures from

4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

the Center. The response did provide MTC’s reasoning for using PDOF for job search
as part of its efforts to meet the Job Corps Chicago Regional Office goal of placing at
least 90 percent of graduates prior to their separation dates. However, if the students
actually did perform job search, there should have been evidence that the students
returned to the Center to discuss the results of the job search with the Center Career
Development Manager, and these discussions should have been documented. The fact
the students did not return to the Center once placed on PDOF and other leave
combinations further supports our conclusion that the Center used PDOF and other
leave to extend the students’ termination dates. As a result, the Center’s onboard
strength incorrectly showed that the bed space and/or training slots occupied by these
students were not available for new incoming students.




U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 03-06-004-01-370
                    Complaint Involving the Cincinnati Job Corps Center




    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                  U.S. Department of Labor—Office of Inspector General
                                       Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

                      U.S. Department of Labor     Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Esther R. Johnson
National Director
Office of Job Corps
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210

OIG conducted an audit of issues raised in a complaint made against the Management
Training Corporation (MTC), operators of the Cincinnati Job Corps Center (the Center).
A former Center staff member who was an MTC employee made the complaint alleging
mismanagement and misappropriation of Job Corps funds by MTC employees.

Based on the allegations in the complaint and our interview with the complainant and
the complainant’s legal counsel, our objectives were to answer the following questions:

  1. Did the Center report students who left the Job Corps Program on its Morning
     Accountability Check report?

  2. Did the Center allow students with excessive unexcused absences from training to
     continue in the Job Corps Program?

  3. Did several Center employees claim time for hours not worked?

  4. Did the Center enforce Job Corps’ Zero Tolerance Policy?

  5. Did Center employees steal property and medical supplies?

  6. Did the Center properly use beautification items?

The following table presents each allegation we considered and our conclusion on
whether the allegation was substantiated.




U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center



                                                                            AUDIT
                           ALLEGATION
                                                                          CONCLUSION
     The Center reported students who had left the Job Corps
1.                                                                         Substantiated
     program on its Morning Accountability Check report.
     The Center allowed students with excessive unexcused
2.   absences from training to continue in the Job Corps                    Inconclusive
     program.
3.   Center employees claimed time for hours not worked.                  Unsubstantiated
     The Center did not enforce Job Corps’ Zero Tolerance
4.                                                                        Unsubstantiated
     Policy.
5.   Center employees stole property and medical supplies.                Unsubstantiated
6.   The Center did not properly use beautification items.                Unsubstantiated

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our scope, methodology, and criteria are detailed in Appendix B.

Objective 1 – Did the Center report students who left the Job Corps Program on
its Morning Accountability Check Report?

Finding – The Center Reported Students Who Left the Job Corps Program on its
Morning Accountability Check Report.

The complainant alleged that Center officials included students on the Morning
Accountability Check (MAC) report even though the students were not eligible for the
Job Corps program. Based on information the complainant provided, we interpreted
this to mean that the Center was including students on the MAC even though the
students had physically left the Center and the Center did not officially terminate them.
The complainant indicated one method the Center used to keep the students on the
MAC report was to record the students as being on Present for Duty Off Center (PDOF)
leave. The complainant provided us with a list of 11 students’ names and dates that
chronicled these abuses.

We found that the Center reported students on the MAC report even though they had
physically left the Center but were not officially terminated. We determined that for 9 of
the 11 students (82 percent) provided by the complainant, the Center used
combinations of various leave categories to extend the students’ termination dates
beyond their actual departure from the Center. Extending students’ termination dates
can inflate the Center’s student onboard strength (OBS). OBS is one of the efficiency
measures that Job Corps used to determine center contractor performance. We did not
determine what effect extending the stay of these nine students had on the Center’s
OBS because we planned to conduct an audit of the Center’s use of leave for all
students for the period of July 1, 2002, through March 31, 2006, to determine the extent
and impact of the problem.



8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

According to Job Corps’ Policy Requirements Handbook (PRH), Appendix 501a, each
Job Corps center has a planned capacity (beds available). Job Corps uses OBS as an
efficiency measure that depicts the extent to which the centers operate at full capacity.
OBS is the percentage of capacity utilized on a cumulative basis for the program year.
According to MTC’s Residential Living Training Manual, OBS is determined by the
average number of students that are enrolled in the program compared to the centers
contracted enrollment capacity. The manual further states that OBS is affected by the
Weekly Termination Rate (WTR). The WTR consists of all students that separate from
the program. The PRH, Appendix 501a, shows that Job Corps’ goal for OBS for all
centers is 100 percent.

The PRH Chapter 6.1 R2a, Administrative Support, Student Attendance, Leave and
Absences, effective during our audit, stated that leave shall not be granted as a means
of artificially postponing the student’s separation date.

The PRH, Chapter 6, Administrative Support Exhibit 6-1, defines leave, the type of
allowed leave and any limitation on the number of days allowed. The PRH dated July 1,
2001, was in effect at the time of our audit. The PRH provided that PDOF leave can be
used for students involved in authorized activities off center such as: regional or national
competitions or awards, work-based Learning or Vocational Skills Training off center,
recruiting drives, escort duty, out-of-town job interviews, and apprenticeship jobs or
armed forces processing. See Exhibit A for a listing and explanation of the leave
categories.

According to the MTC Residential Living Training Manual and our interviews with the
Center Programs Director and Records Supervisor, the Center uses the MAC report to
keep track of Job Corps students on and off the Center. The Residential Advisors (RA)
are responsible for performing nightly bed checks. The RAs record in a logbook
whether a student was absent or present. When the bed check is finished, the RA’s will
complete the Dorm Accountability Roster, which shows whether the student is absent or
present, and submit it to the records department.

Our audit found that for 9 of the 11 (82 percent) students, the Center used a
combination of leave categories to delay reporting students as terminated beyond their
actual departure date from the Center. The Center used PDOF leave to extend six
students’ stay and, for three students, used a combination of Unpaid Administrative
Leave and Absent Without Leave (AWOL) after the students left the Center. The
following provides details of our analysis.

       •   The Center extended the stay of six students by using the PDOF leave
           category. The number of days extended ranged from 15 to 125. For
           example, one student went on Summer Break and never returned to the
           Center. After 18 days on Summer Break, the Center reported the student on
           PDOF for 87 days and indicated the purpose was for job search, which is not
           one of the allowable purposes listed in the PRH. We also found that the



U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

           termination date for the six students was also their last day on PDOF leave.
           See Exhibit B for more details on the six students.

       •   The Center extended the stay of three students by using a combination of
           Unpaid Administrative Leave and AWOL. For example, the Center reported
           one student on Summer Break for 18 days and then extended the student’s
           stay for 21 days using Unpaid Administrative Leave or AWOL. The Center
           then terminated the student. See Exhibit C for more details on the three
           students.

In his response to our preliminary finding, the Center’s Director stated that they had
documentation to justify the various leave categories that the students were placed on.
However, the Center’s Director responded that it is difficult for him to judge the motives
of the staff involved. The Center’s Director was appointed in May 2004, after we
completed our onsite audit work. The Center’s Director also stated that the Job Corps
Regional Office issued a Regional Career Development Services System (CDSS) Plan
that allowed Job Corps Centers to place students on PDOF while students search for
jobs. The justification for this was that the time home would allow students to either find
a job or decide to return to the Center for additional training. The Center’s Director
further stated that Center staff tended to try very hard to retain students and to give
them every opportunity to make wise choices.

We contacted the Job Corps Regional Office Project Director concerning the Center
Director’s response and were informed that the CDSS directed the Center to follow the
PRH. According to the PRH, students on PDOF leave are allowed to be off center for
job interviews; it does not mention job search as one of its uses.

PDOF and other leave combinations were excessive enough to demonstrate that the
Center staff intended to extend the students’ stay after the students left the Center.

We have no recommendations because this audit only focused on the students the
complainant provided. We are currently performing an audit on the extent and effect of
the Center’s use of leave to manipulate student termination date.

Contractor Response

In their response to the draft report, MTC officials disagreed with our conclusion that the
Center used combinations of various leave categories to extend the students’
termination dates beyond their actual departure from the Center. MTC officials stated
that all the students were on approved leave, and the fact that that the leave occurred at
the end of the students’ tenure in the program did not automatically mean that the leave
was used to extend the termination dates. MTC officials also responded that they
considered job search to be a legitimate use of PDOF because when specifying the
allowable uses of PDOF leave, the language in the PRH states “such as,” as opposed
to “limited to.” Further supporting the use of PDOF leave for job search, MTC officials
responded that the Job Corps Chicago Regional Office Career Development Services


10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

System Plan, issued in August 2001, stated the regional office goals for centers was to
place at least 90 percent of graduates prior to their separation dates. Also, MTC
officials stated they sent the Center’s standard operating procedure for using PDOF for
job search to the Job Corps Chicago Regional Office for review and it was never
questioned.

See Appendix D for a copy of MTC’s response to the draft report. Attachments that
MTC submitted along with its response are not included in Appendix D, but are
available upon request.

OIG Conclusion

We did not change our conclusion that the Center used combinations of various leave
categories to extend the students’ termination dates beyond their actual departure from
the Center. MTC officials’ response to the draft report provides their reasoning for using
PDOF for job search as part of its efforts to meet the Job Corps Chicago Regional
Office goal of placing at least 90 percent of graduates prior to their separation dates.
However, if the students actually did perform job search, there should have been
evidence that the students returned to the Center to discuss the result of the job search
with the Center Career Development Manager, and these discussions should have
been documented. The fact the students did not return to the Center once placed on
PDOF and other leave combinations further supports our conclusion that the Center
used the PDOF and other leave to extend the students’ termination date. As a result,
the Center’s onboard strength incorrectly showed that the bed space and/or training
slots occupied by these students were not available for new incoming students.

Objective 2 – Did the Center allow students with excessive unexcused absences
from training to continue in the Job Corps Program?

Finding –The Center Allowed Students With Excessive Unexcused Absences to
Continue in the Job Corps Program.

The complainant alleged that the Center allowed students with excessive unexcused
absences to continue in the Job Corps program. The complainant provided us the
names of 23 students who had unexcused absences or missed training periods, which
the complainant believed to be excessive. We determined that there was a pattern of
unexcused absences for 12 of the 23 students (52 percent). However, we could not
determine if the Center took appropriate action for 11 of the 12 students because the
Center destroys the student Center Standards Office (CSO) file 6 months after the
termination date unless the student separates from the Job Corps Program for
disciplinary reasons. We are presently conducting an audit of current students with
excessive absences to determine if the Center took appropriate action according to its
policies and procedures.

PRH Chapter 3.4, Student Standards and Conduct, Section R2, Rules and Sanctions,
dated July 1, 2001, states: “Centers shall develop standards of conduct, including a set

U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

of rules and sanctions.” PRH Exhibit 3-1, Infraction Levels and Appropriate Center
Actions, shows that absent from assigned activity is a Level III infraction and the Job
Corps Center action is to sanction the student in accordance with the center’s policy
and behavior review panel.
The Center’s Standard Operating Procedure (SOP), Student Attendance Systems,
dated May 1, 2002, provides the policy on student attendance. According to the
following parts of the SOP, the Center is expected to take action on students who fail to
attend classes.

       •   Paragraph B 1 - “Failure to attend classes or walking off the center during
           class hours is a violation of center rules and regulations and interferes with
           students’ vocational, educational and social development.”

       •   Paragraph B 2 - “… students must have written authorization to be excused
           from classes during the training day….”

       •   Paragraph B 4 - “The center views class attendance as paramount to the
           students’ development in all areas of performance and has established this
           intolerance for absence policy to reflect this view.”

       •   Paragraph B 5 - “Since attendance is an employability issue, it is imperative
           that our students understand its importance.”

Paragraph B 9 and Section C, provides the following steps should be taken to address
attendance problems:

       •   First time Offenders: Students who have five unexcused absences within a
           2-week period must attend a counseling session.

       •   Second Time Offenders: Students must meet with the Attendance
           Committee and sign a Performance contract.

       •   Third Time Offenders: Students must meet with the CSO.

       •   Fourth Time Offenders: Students are referred to the CSO who in turn refers
           the student to the Center Review Board which may lead to termination.

According to the Center’s Programs Director, on the first and third Monday of the month,
the Center Records Supervisor initiates a printout, listing students absent from training.
The information is provided to the Intervention Panel comprised of the CSO, Academic
Manager, Vocation Manager, Counseling Staff or Designee, Residential Living Manager
(RLM), Programs Director, and Security. Depending on the level of the violations, the
Center schedules a meeting with the students who are attendance violators and the
appropriate staff.



12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

Based on the Center’s SOP, we defined excessive unexcused absences as any student
that had five or more absences within a 2-week period and this occurred more than four
times. We reasoned that the student should have changed his or her behavior after
going through the four step progressive action provided in the Center’s SOP.

The results of our analysis showed that 12 of the 23 students had excessive unexcused
absences. The average number of incidents of unexcused absences that exceeded 4
was 6, and the average total number of unexcused absences during the students’
enrollment at the Center was 149. The table below provides details on the 12 students.

                   Students With Excessive Unexcused Absences
                     Number of Incidents of
                      Unexcused Absences         Total Number of Unexcused
                       Beyond the Fourth       Absences During Enrollment at
     Student              Occurrence                     the Center
         1                     15                            291
         2                      9                            191
         3                      8                            181
         4                      8                            145
         5                      7                            141
         6                      7                            132
         7                      6                            125
         8                      5                            100
         9                      3                            134
        10                      3                            187
        11                      3                             67
        12                      2                             91

We could not determine whether the Center followed its SOP in addressing student
attendance problems. We found that only 1 of the 12 students was terminated for
disciplinary reasons from the program, partially for excessive absences. For the
remaining 11 students, we did find evidence that 4 of the students were placed on
Attendance Behavior Contracts for first and second time offenses, but there was no
documentation to address action taken past the fourth time offense for the remaining 7
students. Center officials told us that they destroy student counseling records 6 months
after the student’s termination date. We concluded this practice complied with the PRH.
The PRH Chapter 6.3 – Student Record Management states: “records at Job Corps
centers are to be retained for 3 years after the student’s termination date.” However,
the PRH does not include counseling records in its list of records required to be
retained.

We have no recommendations because this audit focused on the students the
complainant provided and all of these students had terminated from the program at the
time of our audit. Therefore, counseling records were not available to determine
whether the Center complied with its SOP. We are presently conducting an audit of


U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

unexcused absences which will include current students and those students who
separated within a 6-month period within the timeframe of our audit.

Contractor Response

MTC’s response did not address our work on excessive unexcused absences.

Objective 3 – Did Several Center Employees Claim Time for Hours Not Worked?

Results – Documentation Supported Hours Worked for Several Center
Employees.
The complainant alleged: (1) there were several incidents in which Center employees
were paid for a full shift when they reported to work late or left early, and/or (2) were
paid for shifts when they did not report for work. We could not substantiate the
allegation. However, the Center did not have the employee sign-in/sign-out sheet for
one of the alleged incidents and, as a result, we were not able to make a determination
of the actual hours worked.

According to an interview with the Center Accounting Supervisor, the Center used
manual time cards to account for its hourly employees’ time worked. RAs were paid by
the hour and the RLM was paid on salary basis. The Center Accounting Supervisor,
said all time cards were approved by the employee’s supervisor. The Director of
Finance and Administration told us that hourly employees should sign the sign-in/sign-
out sheet. We observed that this was kept at the guard’s station when reporting to and
leaving from work.

The complainant provided us monthly calendars for the period July 2002 through June
2003, in which the complainant recorded the absences and arrival and departure times
for several employees based on the complainant’s observation. Of the 62 entries made
on the calendars, we selected a non-statistical sample of 15 incidents to determine if
there was a pattern of incidents in which employees were actually paid for time not
worked.

The following provides the results of our audit of this allegation:

     Allegation That Employees Were Paid for Time Not Worked

     We reviewed eight incidents where the complainant alleged that employees were
     paid for time they did not work. The complainant provided the employee’s name and
     the hours the complainant observed the employee started work and/or ended work.
     In seven of the eight incidents, we found the hours reported on the employee’s time
     cards reconciled to the sign-in/sign-out sheets and/or dorm log books.

     For the remaining incident, we were unable to determine if the employee was paid
     for the correct number of hours because the Center could not locate the sign-in/sign-


14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

   out sheet supporting the hours worked. However, this did not affect the scope of our
   audit work or our conclusion on the allegation.

   Allegation That Employees Were Paid For Days They Did Not Report to Work

   We reviewed seven incidents in which the complainant alleged that employees were
   paid even though they did not report to work. We reviewed the employees’ time
   cards and leave records and found that in all seven incidents, the employees were
   either on approved sick leave or vacation or they reported to work.

Since our sample did not show a pattern of employees paid for time not worked, we did
not review any more of the incidents provided by the complainant. However, we did
note that the Center needs to ensure that time sheets are retained for audit purposes.
Overall, we concluded that the allegation was not substantiated.

The Center Director told us that the Center no longer uses the employee
sign-in/sign-out sheet and considers the time cards, signed by the employees’
supervisor, to be the official documentation of hours worked.

Contractor Response

MTC officials responded that the sign-in/sign-out sheet is not a Job Corps requirement
and MTC documents the hours worked for non-exempt staff using the timecards signed
by the supervisor.

OIG Conclusion

We agreed with the MTC response and removed the recommendation that was in the
draft report.

Objective 4 – Did the Center Enforce Job Corps’ Zero Tolerance Policy?

Results – The Center Enforced Job Corps’ Zero Tolerance Policy

The complainant alleged that the Center did not enforce Job Corps’ Zero Tolerance
Policy. We could not substantiate the allegation.

Chapter 3.4 in the PRH, Student Standards of Conduct and R2, Rules and Sanctions,
requires centers to develop a Standards of Conduct that incorporate a policy of Zero
Tolerance for Violence and Drugs. The PRH requires that each center’s policy include
at a minimum, the infraction and corresponding actions detailed in the PRH’s Exhibit 3-
1. We found the Center implemented a policy that met the PRH requirements. The
following are the Zero Tolerance offenses in the Center’s Standards of Conduct:

  1. Possession of a gun or illegal weapon
  2. Physical assault that causes bodily harm to student or staff

U.S. Department of Labor—Office of Inspector General                                       15
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

  3.   Sexual assault of a criminal nature
  4.   Robbery and extortion
  5.   Arson
  6.   Arrest for felony, on or off Center property
  7.   Possession, distribution, or sale of drugs on center or under center supervision
  8.   Conviction of drug use or possession
  9.   Use of drugs as evidenced by a positive drug test conducted upon suspicion or a
       second positive drug test after a 45-day period

According to the Center’s Standards Officer and the Center’s SOP, significant incidents
were defined and classified at the following levels:

        •   Level-1 offenses are Zero Tolerance offenses and require immediate
            termination.

        •   Level-2 offenses are intermediate offenses that are handled through the CSO
            office or Dorm Court . Depending on the offense, the incident can be sent
            directly to the Center review board for a decision.

        •   Level-3 offenses are minor and are handled through the CSO office or Dorm
            Court.

According to the Center’s Standards Officer, all staff are required to report all incidents
by preparing a Significant Incident Report (SIR). They also track the SIR’s in a logbook
and an automated data base. The Center’s security staff is also required to complete a
SIR for incidents entered in the Center’s security logbook.

The complainant provided us with three specific incidents that were alleged to have
violated the Zero Tolerance Policy. In addition to the three incidents, we reviewed a
judgmental sample of seven Zero Tolerance incidents selected from the Center’s
security logbooks and one Zero Tolerance incident selected from a sample of SIRs the
complainant provided.

The following are details of our review of the three specific Zero Tolerance incidents the
complainant provided:

  1. The complainant alleged two students were discovered with marijuana in their
     rooms but were not suspended or terminated. The Center did not have a written
     SIR on this particular incident. However, there was documentation that showed
     the Center’s Training Employees Assistance Program (TEAP) Specialist was
     called in to examine the students’ rooms. The TEAP Specialist confiscated items
     and identified them as “flavored“ cigarettes and not marijuana. Therefore, this was
     not a Zero Tolerance violation.

 2. The complainant alleged one student slapped another student but was not
    disciplined. The SIR showed two students were involved in a fight. We reviewed

16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

     documentation of the Center’s action on the SIR. The Center determined one of
     the students initiated the fight and terminated the student. The CSO
     recommended the other student be found guilty of fighting and be terminated. The
     Center Review Board Minutes stated that this student was guilty, but the student
     should be retained in the Job Corps program. The Center Review Board
     members’ ballots showed they considered that the student had no other
     disciplinary incidents.

 3. The complainant alleged that a Center staff member punched a student but was
    not suspended or terminated. Although the allegation was directed towards
    discipline of a Center staff member, which is not covered under Zero Tolerance,
    we reviewed the incident to determine if any students involved committed a Zero
    Tolerance violation and whether any disciplinary action taken complied with the
    Center’s SOP. The SIR and statements taken from the students and Center staff
    showed several Center staff members intervened in a fight between two students.
    Several witnesses wrote that after Center staff intervened several times to stop
    one of the students from continuing the fight, one of the staff members hit the
    student. One witness wrote that the student hit the staff member and the staff
    member responded in self defense by hitting the student twice. The CSO
    recommended that the student be found guilty of the charges of Physical Assault
    that Causes Bodily Harm, Fighting, Destruction of Government Property, and
    Alcohol Intoxication and terminated. Based on our review of the documentation,
    we concluded that the Center staff member did hit the student but it was done in
    self defense and the CSO recommendation complied with the Center’s SOP.

For the eight Zero Tolerance incidents we judgmentally selected, we found the Center
terminated the students.

Overall, the allegation could not be substantiated.

Objective 5 – Did Center Employees Steal Property and Medical Supplies?

Results - We Found No Evidence of Unreported Theft of Property and Medical
Supplies by Center Employees.

The complainant alleged that students and staff convert Job Corps property for their
own use. Examples included an employee took a comforter used for a dorm bed for
his/her own personal use, another employee was taking over-the-counter-medications
for her own personal use, and security officials had keys and were taking food. We
could not substantiate any of the above allegations.

To determine if Center employees had the opportunity to steal property, we observed
physical security of the main building, interviewed Center security personnel about
security operations and the Center’s Health and Wellness Manager about security of
medical supplies.


U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

We did not address the allegation of one employee taking a comforter because it was
not significant and from our observation, the comforters were stored in a controlled
environment.

We physically observed that the attic, basement, and subbasement areas of the main
building were secure. We also found there was a loading dock with a door in the rear of
the building used for receiving food and supplies. Center security personnel told us the
door was locked from midnight to 7 a.m. and all persons entering and leaving the
Center are required to sign in and out. We did note that a potential weakness with this
door, in that, an individual could walk into the building through this unlocked door during
daytime hours. However, Center officials told us that they have since corrected the
problem, by adding a security camera to the loading dock area, and by installing a
doorbell for deliveries. The door is no longer unlocked in the mornings.

Concerning medication, from our observation, we found that the medicine cabinets in
the dorms 02 and 06 contained over-the-counter medications such as aspirin, antacid
medication, iodine, ace bandages, rubbing alcohol, and ibuprofen. The Center’s Health
and Wellness Manger said the RAs are supposed to restock the cabinets weekly and
maintain a medication logbook recording receipts and usage of medicine and supplies.
In order to receive refills, they must present empty containers. The Manager said she
reviews the logbook to verify the amount of medications given to the students and
initials the logbook before reissuing medicine refills. The Manager told us larger
quantities of medication and prescription drugs are kept in the Health and Wellness
Center and can only be administered by the manager on duty.

We concluded that medication located at the dorms was minimal and was properly
secured. We found that the medicine cabinets contained a minimal amount of medicine
because of its size, 15 inches wide and 24 inches long, and they were locked. The
cabinets contained normal over-the-counter medications. We did not perform testing of
the over-the-counter medical supplies inventory because of the minimal amount that is
stored in the medicine cabinets which were properly secured. We did interview the RA
accused by the complainant of taking over-the-counter medication for her own personal
use. The RA said she had a heart attack in 1999, and is only allowed to take
prescription medication approved by her doctor. The Center’s Director and the RLM
confirmed these facts.

The complainant alleged that security officials had keys to the kitchen and were taking
food. We interviewed the Center’s Finance Director and found that a food theft did
occur in 2001, but they were not able to identify the responsible party. As a result, the
Center installed locks on the refrigerators and freezers. The Center’s Finance Director
said only food service and warehouse personnel have keys to the refrigerators and
freezers. We did not perform testing of the food inventory because the Center did take
action to secure the food after the reported theft.




18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

We determined that the food theft was addressed and the Center dorms and medical
facility were secure, and it would be difficult to steal the type of property items the
complainant alleged. Therefore, the allegation could not be substantiated.

Objective 6 – Did the Center Improperly Use Beautification Items?

Results – We Did Not Determine that the Center Improperly Used Beautification
Items.

The complainant alleged that from her observation the Center spends thousands of
dollars on beautification projects and only uses the items when the facility is being
inspected. After the inspections, the Center placed all the beautification items in boxes
and returned them to storage in the attic. The complainant also alleged that Job Corps
pictures were being taken for personal use. The allegation was not substantiated.

Based on our interview with the Center’s Finance Director, we concluded the
beautification items the complainant alleged were improperly used were motivational
pictures. The Finance Director told us that the motivational pictures were purchased
around June 2002, the time the Center was scheduled for a Regional Job Corps Office
Assessment.

We physically inspected the attic to determine if the motivational pictures were being
stored there. We did not find the motivational pictures; we found the attic only
contained old pictures, student luggage, old furniture, comforters, and financial records.

To determine if staff was taking motivational pictures for their personal use, we
interviewed the Center’s RLM. The RLM did remove two old looking pictures from the
attic upon her arrival in June 2003, to improve the appearance of her office, which she
did not consider to be personal use. However, prior to removing the pictures from the
attic, the RLM obtained permission from the Programs Director. The RLM showed us
the two pictures that were removed from the attic and hung in her office.

We interviewed two students currently at the Center. The purpose of the interviews was
to determine if the motivational pictures were hanging in the same locations, and if the
students were aware of any theft among staff. The interviews disclosed that old
pictures had been replaced with new motivational pictures and they had been in the
same locations for the past 19 months.

Overall, we found the allegation was not substantiated.


Elliot P. Lewis
March 15, 2004 -- for all allegations except for excessive unexcused absences.
September 14, 2005 -- for the allegation of excessive unexcused absences.



U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center




Exhibits




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                                       Complaint Involving the Cincinnati Job Corps Center

                                                                                                       EXHIBIT A

                                             Leave Categories 1

            LEAVE TYPE                               PURPOSE                           CRITERIA/LIMITATION
                                         •   Regional/National competitions
                                             or awards.
                                         •   Work-based Learning.
                                         •   Vocational Skills Training
                                             projects off Center.
Present for Duty Off Center (PDOF)
                                         •   Recruiting drives.
                                                                                   None
                                         •   Escort Duty.
                                         •   Out-of-town job interviews.
                                         •   Apprenticeship jobs.
                                         •   Armed Forces processing.
                                                                                   AWOL absence in excess of 6
                                                                                   consecutive training days, or 12
                                        Failure to report to Center for
Absent Without Leave
                                        morning attendance.
                                                                                   days in a 6-month period, will
                                                                                   result in separation from the
                                                                                   program.
                                         •   Family compassion or hardship.
                                         •   Court appearance as a
                                             defendant.
                                         •   Pending results of disciplinary
                                             fact finding when deemed              Not to exceed 30 days per year,
Administrative Leave Without Pay             necessary to remove student           unless additional days are
                                             from the center.                      approved by the regional office.
                                         •   Elective medical/dental
                                             treatment.
                                         •   When all other leave time is
                                             exhausted.
                                                                                   A break is equivalent to 10
                                        Students are entitled to a scheduled       training days. Destination is
Winter/Summer Break                     summer break set by the Job Corps          usually home or alternate
                                        National Office.                           destination with limited
                                                                                   transportation cost.
                                         •   Death in Family.
                                         •   Life threatening illness or injury.
Emergency Leave                                                                    Not to exceed 10 training days.
                                         •   Serious illness or injury to
                                             student’s child.
                                         •   Center closure for emergency
                                             conditions.
                                         •   Court Appearance.
                                         •   Securing medical/dental as
                                             concurred by Center health
                                             staff.
                                                                                   Not to exceed 10 training days
Administrative Leave                     •   Temporarily housed off Center
                                             as a precaution against harm or
                                                                                   per 6-month period.
                                             injury.
                                         •   Short-term active duty in
                                             National Guard.
                                         •   Other circumstances of an
                                             urgent personal nature.




1
    Policy Requirements Handbook - Administrative Support, Exhibit 6-1, July 1, 2001

U.S. Department of Labor—Office of Inspector General                                                                23
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                                    Complaint Involving the Cincinnati Job Corps Center

                                                                                                EXHIBIT B

                         Leave Used to Extend Center Days for Six Students
Leave Taken Prior
                                                    Extended
to the Termination         Dates            Days                                Auditor’s Comment
                                                      Days
       Date
Student 1
                                                                 Student was AWOL for 5 days. The student returned
                                                                 to the Center for 1 day. The next day, the student left
AWOL                 08-16-03 to 08-20-03       5                the Center. The Center place the student on PDOF
On Center            08-21-03 to 08-21-03       1                leave for 50 days until it terminated the student. The
                                                        50
PDOF                 08-22-03 to 10-09-03      50                purpose for the PDOF leave was job search which is
Termination date          10-09-03             55                not authorized by the PRH. We counted the days
                                                                 from August 22 to October 9 as the number of
                                                                 extended days.
Student 2

                                                                 The student left the Center. The Center placed the
PDOF                  08-27-03-09-24-03        29                student on PDOF leave for 29 days before
                                                        29
Termination date          09-24-03             29                termination. The purpose for the PDOF leave was
                                                                 job search which is not authorized by the PRH.

Student 3
                                                                 The student never returned to the Center after
                                                                 Summer Break. The student was placed on PDOF
Summer Break         06-06-03 to 07-13-03      18                leave for 87 days until the Center terminated the
PDOF                 07-14-03 to 10-08-03      87       87       student. The purpose for the PDOF leave was job
Termination date          10-08-03            105                search which is not authorized by the PRH. We
                                                                 counted the days from July 14 to October 8 as the
                                                                 number of extended days.
Student 4
                                                                 The student left the center 28 days prior to Summer
                                                                 Break. The Center placed the student on PDOF
                                                                 leave. The student did not return after Summer
                                                                 Break and the Center placed the student on PDOF
PDOF                 05-29-03 to 06-25-03      28
                                                                 leave for an additional 66 days until the Center
Summer Break         06-26-03 to 07-13-03      18
                                                       112       terminated the student. The purpose for the PDOF
PDOF                 07-14-03 to 09-17-03      66
                                                                 leave was job search which is not authorized by the
Termination date          09-17-03            112
                                                                 PRH. We included the days the student was on
                                                                 summer break in the number of days extended
                                                                 because they occurred between the time the student
                                                                 was on PDOF.
Student 5
                                                                 The student left the Center. The Center placed the
                                                                 student on PDOF leave for 29 days before
PDOF                 03-24-03 to 04-21-03      29
                                                        29       terminating the student. The purpose for the PDOF
Termination date          04-21-03             29
                                                                 leave was job search which is not authorized by the
                                                                 PRH.

Student 6

                                                                 The student left the Center. The Center placed the
PDOF                 03-27-03 to 04-10-03      15                student on PDOF for 14 days before being
                                                        15
Termination date          04-10-03             15                terminated. The purpose for the PDOF leave was job
                                                                 search which is not authorized by the PRH.




       U.S. Department of Labor—Office of Inspector General                                                  25
       Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                                Complaint Involving the Cincinnati Job Corps Center

                                        EXHIBIT C
            Combination of Leave Used to Extend Center Days for Three Students
  Leave Taken Prior to                                   Extended
                                Dates            Days                       Auditor’s Comment
 the Termination Date                                      Days
Student 1

                                                                      Student went on Summer Break
                                                                      and was AWOL for 2 days
Summer Break             06-26-03 to 07-13-03      18
                                                                      afterwards. The student returned
AWOL                     07-14-03 to 07-15-03       2
                                                                      to Center for 1 day and left the
On Center                07-16-03 to 07-16-03       1
                                                             21       Center. The Center placed the
Unpaid Admin. Leave      07-17-03 to 07-29-03      13
                                                                      student on Unpaid Administrative
AWOL                     07-30-03 to 08-06-03       8
                                                                      leave for 13 days and on AWOL
Termination date              08-06-03             42
                                                                      for another 8 days before being
                                                                      terminated.

Student 2

                                                                      Student never returned to the
Summer Break             06-26-03 to 07-13-03      18
                                                                      Center after Summer Break. The
Unpaid Admin. Leave      07-14-03 to 07-16-03       3
                                                                      Center put the student on a
AWOL                     07-17-03 to 07-21-03       5
                                                             26       combination Unpaid
Unpaid Admin. Leave      07-22-03 to 07-31-03      10
                                                                      Administrative leave and AWOL
AWOL                     08-01-03 to 08-08-03       8
                                                                      for 26 days before being
Termination date              08-08-03             44
                                                                      terminated.

Student 3

                                                                      The Center put the student on a
Paid Admin. Leave        03-17-03 to 03-30-03      14                 combination of Paid
Unpaid Admin. Leave      03-31-03 to 04-03-03       4        18       Administrative leave and Unpaid
Termination date              04-03-03             18                 Administrative leave for 18 days
                                                                      before being terminated.




  U.S. Department of Labor—Office of Inspector General                                            27
  Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center




Appendices




U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

                                                                               APPENDIX A
BACKGROUND

Job Corps is a national program, administered by the U.S. Department of Labor (DOL)
Office of Job Corps, which offers a comprehensive array of career development
services to at-risk young women and men, ages 16 to 24 to prepare them for successful
careers. Job Corps was established by the Economic Opportunity Act of 1964 and is
currently authorized under the Workforce Investment Act of 1998, Part 670, Title I. Job
Corps’ objective is to provide young people with the skills they need to obtain and stay
employed, enter the Armed Forces, or enroll in advanced training or further education.

The contract to operate the Center during our audit period was awarded by DOL to MTC
on April 29, 1999. The base contract in the amount of $10,713,009 covered the
Center’s operational cost for the period of May 1, 1999, through April 30, 2001. The
contract contained three option years and the cost of each option year was $5.5 million,
$5.7 million, and $5.8 million, respectively. According to the contract, the contractor
was to provide training and related support to 225 students.

On May 20, 2003, the complainant, a former employee, provided several allegations
against officials at the Center and MTC to OIG’s Complaint Hotline. The complainant’s
legal counsel also provided us a letter with details of the allegations, and we interviewed
both of them to obtain further explanations regarding the allegations. From the
complaint and the interview, the complaint alleged:

       •   The Center reported ineligible students on the MAC.

       •   Students were allowed to continue in the Job Corps Program with excessive
           absences.

       •   Several Center employees claimed overtime for hours not worked or were
           AWOL.

       •   The Center was not enforcing Job Corps’ Zero Tolerance Policy.

       •   There was theft of property and medical supplies by Center employees.

       •   The Center improperly used beautification items.




U.S. Department of Labor—Office of Inspector General                                       31
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA
Objectives

Based on the allegations in the complaint and our interview with the complainant and
the complainant’s legal counsel, our objectives were to answer the following questions.

  1. Did the Center report students who left the Job Corps Program on its Morning
     Accountability Check report?

  2. Did the Center allow students with excessive unexcused absences to continue in
     the Job Corps Program?

  3. Did several Center employees claim time for hours not worked?

  4. Did the Center enforce Job Corps’ Zero Tolerance Policy?

  5. Did Center employees steal property and medical supplies?

  6. Did the Center properly use beautification items?

Scope and Methodology

Our audit focused on the allegations against the Center and MTC in the complaint,
covering the period January 2002 through November 2003.

The following discusses the methodologies used to review the allegations.

For reviewing the Center’s use of leave to extend the termination date, we interviewed
the Programs Director and the Records Supervisor. We obtained an understanding on
the responsibilities of the RA for reporting students on the MAC. We reviewed the
Student Pay Leave Records to identify the daily status of the 11 students and dates
specified in the complaint. We then compared the dates on the Student Pay Leave to
the dates on the MAC or the Weekly Accountability-Print Accountability History Roster
(WA-PAH). We obtained and reviewed the Student Profiles of the 11 students. The
Student Profile is a complete history of a student’s activities while he/she is on center.
We used the Student Profiles as an additional tool to verify the accuracy of the students’
leave and to ensure that the original documents were correct. Finally, we reviewed
various leave documents such as Unpaid and Paid Administrative Student Leave
Request, AWOL Occurrence Record, PDOF Leave Notification, Emergency Student
Leave Request, and other supporting documents, where applicable, for the 11 students.
We developed a schedule to analyze student activities from enrollment until termination
from the Center.




U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center

For our review of unexcused absences, we only reviewed the students the complainant
provided. We interviewed the Center’s Programs Director to determine the process the
Center used to address absences from training classes or other activities. For the 23
students that the complainant provided, we obtained a detailed listing of the dates of
unexcused absences. Using the detailed listing for each student, we identified the
number of incidents in which the student had five or more unexcused absences within a
2-week period. We then determined the number of students that had more than four
incidents and considered these to be excessive unexcused absences.

For the alleged payroll irregularities, the complainant provided a monthly calendar
covering the period July 1, 2002, to June 30, 2003, on which the complainant observed
and recorded the absences and time worked for various employees. Of the 62 entries
on the calendar, we selected a non-statistical sample of 15, using a non-structured
technique avoiding any conscious bias or predictability, to determine if there was a
pattern of incidents in which employees were actually paid for time not worked. To
accomplish our review, we interviewed the Center’s Accounting Supervisor to obtain an
understanding of how the Center’s payroll and timekeeping system functioned. For
each entry in our sample, we reviewed applicable and available timecards,
sign-in/sign-out sheets, and dorm logbooks. For those employees who may have been
on leave when the complainant’s allegations were made, we reconciled the time card to
the Payment Detail Listing report which showed the actual employees’ pay and types of
hours worked.

To review Zero Tolerance allegations, we interviewed the Center’s Standards Officer
and reviewed the Center’s SOP to determine the Center’s process for handling students
who committed conduct offenses. We also verified that this process complied with the
PRH Chapter 3.4, Student Standards and Conduct. To determine if the Center officials
complied with the criteria in the Center SOP, we tested 11 Zero Tolerance incidents and
traced the incidents as documented in the SIRs to the CSO and reviewed the action
taken. We tested the three Zero Tolerance incidents the complainant provided, seven
Zero Tolerance incidents selected from the Center security logbooks, and one Zero
Tolerance incident selected from copies of SIRs the complainant provided. The Center
security logbooks contained approximately 225 incidents. Due to the larger number of
incidents, we narrowed our scope to the months of January 2002, July 2002, November
2002, February 2003, June 2003 and September 2003. We judgmentally selected all
incidents that appeared to be Level 1 offenses. If a month did not contain a Level 1
offense, we proceeded on to the next month. In all, there were seven incidents that
appeared to be Level 1 offenses. The complainant provided us copies of 96 SIRs. We
analyzed a judgmental sample of 26 SIRs based on incidents that appeared to be the
most severe and determined that 1 incident was in violation of the Zero Tolerance
Policy.

To review theft of Job Corps property, we toured the Center’s dorms, attic, basement
and subbasement, the RAs’ offices, and the Wellness Center to determine if these
areas were secure from theft. We interviewed students about their observation of
certain property items in various locations throughout the Center.


34                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

To review use of Job Corps’ beautification items, we interviewed the Center’s Finance
Director about the purchase of beautification items. We interviewed the Center’s RLM
who the complainant alleged had taken beautification items for personal use and we
inspected the RLM’s office. We also interviewed two students who were enrolled at the
Center at the time of the allegations, to determine if the motivational pictures were
hanging in the same locations, and if the students were aware of any theft among staff.

We did not test the overall internal controls of the Center’s Job Corps program or
perform a complete audit of the Center’s Job Corps program. We only performed the
necessary fieldwork and tested controls to address the allegations.

We conducted our audit in accordance with Government Auditing Standards. Fieldwork
at the Center was conducted December 8, 2003, to February 3, 2004. We performed
additional analytical work of data and information the Center and the complainant
subsequently provided us at various times from the end of our fieldwork at the Center
through September 2005.

Criteria

We used the following criteria to perform our audit.

   •   Job Corps’ Policy Requirements Handbook.

   •   Cincinnati Job Corps Center’s Standard Operating Procedures.

   •   MTC’s Residential Living Training Manual.




U.S. Department of Labor—Office of Inspector General                                       35
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS


                   AWOL        Absent Without Leave

                   CDSS        Career Development Services System

                   Center      Cincinnati Job Corps Center

                   CSO         Center Standards Office

                   DOL         Department of Labor

                   MAC         Morning Accountability Check Report

                   MTC         Management Training Corporation

                   OBS         Onboard Strength

                   OIG         Office of Inspector General

                   PDOF        Present For Duty Off Center

                   PRH         Policy Requirements Handbook

                   RA          Residential Advisors

                   RLM         Residential Living Manager

                   SIR         Significant Incident Report

                   SOP         Standard Operating Procedures

                   WA-PAH Weekly Accountability-Print Accountability History

                   WTR         Weekly Termination Rate




U.S. Department of Labor—Office of Inspector General                                       37
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center

                                                                               APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                       39
Report Number: 03-06-004-01-370
Complaint Involving the Cincinnati Job Corps Center




40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-004-01-370
                                           Complaint Involving the Cincinnati Job Corps Center




NOTE: MTC’s response to the draft report included two attachments: “Career
Development Services System Plan, Chicago Region, August 2001” and the center
Standard Operating Procedure entitled “JOB SEARCH LEAVE PROCEDURES
(PDOF).” The attachments have not been included in this final report, but are available
upon request.




U.S. Department of Labor—Office of Inspector General                                       41
Report Number: 03-06-004-01-370
